No. 20-240

MARION E. PITCH, THE PERSONAL REPRESENTATIVE OF
THE ESTATE OF ANTHONY S. PITCH, AND LAURA WEXLER,
PETITIONERS,

CERTIFICATE OF WORD COUNT.

V.
UNITED STATES OF AMERICA,
RESPONDENT.

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Amicus Brief In Support Of Petitioner, which was prepared using
Century Schoolbook 12-point typeface, contains 3,822 words excluding the parts of the

document that are exempted by Rule 33.1(d). This certificate was prepared in reliance
on the word-count function of the word-processing system (Microsoft Word) used to

prepare the document.
I am a member of the Bar of the Supreme Court of the United States.
DATED this 14th day of October 2020.

William M. Simpich

Counsel for the Amicus
Curiae

528 Grand Avenue
Oakland, CA 94610
(415) 542-6809

